                            SOCIAL SECURITY
                            Office of the Inspector General

                                      May 7, 2010

The Honorable Charles E. Grassley
Ranking Member
Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Senator Grassley:

In a July 21, 2009 letter, you requested that we conduct an audit of the Social Security
Employees’ Activities Association, Inc., (EAA) and its related organizational and
financial entities. Specifically, you requested that the audit include a thorough,
independent review of all EAA-related organizations that would examine current and
past lines of business and revenues generated from all sources; a detailed background
on EAA management, including terms of services and direct and indirect compensation
received; and a review of possible conflicts of financial interest. As Social Security
Administration (SSA) employees, Office of the Inspector General staff members are
eligible to join the EAA. However, no individuals assigned to this audit team are EAA
members. The team also included two auditors provided by the U.S. Postal Service’s
Office of Inspector General. The enclosed report presents the results of our review.

Thank you for bringing your concerns to my attention. My office is committed to
combating fraud, waste, and abuse in SSA’s operations and programs. This report
includes the results of our audit of EAA and its related organizational and financial
entities. To ensure SSA is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,



                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure
cc:
Michael J. Astrue


              SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

 The Social Security Employees’
   Activities Association, Inc.

          A-06-10-11028




            May 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                     Background
OBJECTIVE
Our objective was to respond to concerns raised by Senator Charles E. Grassley in his
request for an audit of the Social Security Employees’ Activities Association, Inc. (EAA).
Specifically, we reviewed documentation supporting Fiscal Year (FY) 2006 through
2008 financial transactions reported on EAA and related entity financial statements;
identified EAA’s management structure and reviewed its compensation practices; and
determined whether potential conflicts of financial interest existed.

BACKGROUND
EAA is a tax-exempt, nonprofit company established in 1966 under section 501(c)(4) of
the Internal Revenue Code (IRC). According to EAA’s Articles of Incorporation, on
behalf of its members, the EAA provides social, recreational, cultural, welfare, health,
and athletic activities. It also provides other facilities, benefits, and services for
members as determined by its Board of Directors (Board).

Since its original incorporation in 1966, EAA management has created five additional
corporations to carry out various Social Security Administration (SSA) employee-related
activities. EAA’s organizational structure is summarized in the following diagram.

                                               Social Security
                                                 EAA, Inc.

                                                 Est. 03/1966
                                                  501(c)(4)
                                                 Tax-exempt
                                                  Nonprofit
     EAA Service
     Centers, Inc.
                          SSA Community          EAA Fitness,             EAA/SSA
      Est. 09/1978
                            Scholarship             Inc.                Secur-A-Kiddie
  For-Profit Subsidiary
      of EAA, Inc.           Fund, Inc.                                  Center, Inc.

                            Est. 10/1989          Est. 03/2000            Est. 02/1991
                             501(c)(3)              501(c)(3)              501(c)(3)
                            Tax-exempt            Tax-exempt              Tax-exempt
     EAA Service             Nonprofit             Nonprofit               Nonprofit
   Corporation, Inc.

      Est. 11/1977
  For-Profit Subsidiary
    of EAA Service
      Centers, Inc.




The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)                1
•   EAA Service Centers, Inc. (Service Centers) is a for-profit company incorporated
    in 1978 that provides various services to its customers, including postal and notary
    services, money orders, vendor shows, theme park tickets, and transit passes.
    Service Centers is a wholly owned subsidiary of EAA. Service Centers conducted
    vending operations on SSA’s Woodlawn and Metro West campuses, and also
    conducted vending operations on the Centers for Medicare & Medicaid Services’
    (CMS) campus in Baltimore, Maryland. In December 2008, SSA’s Office of General
    Counsel (OGC) issued a notice to EAA stating that Federal regulations specifically
    prohibited vending on Federal property except for commercial activities sponsored
    by recognized, nonprofit Federal employee associations. The notice stated that
    EAA’s for-profit corporations were not legally permitted to sponsor or engage in
    vending activities on Federal property and instructed EAA to terminate its vending
    activities on SSA property effective January 16, 2009. Service Centers currently
    conducts its SSA vending activities online and in commercial space across the street
    from the Woodlawn campus. At the time of the audit, Service Centers continued to
    conduct vending operations on the CMS campus.

•   EAA Service Corporation, Inc. (Service Corp.) is a for-profit company
    incorporated in 1977 that sells insurance products to EAA members. Service Corp.
    is a wholly owned subsidiary of the Service Centers.

EAA includes the activities of three additional nonprofit companies.

•   EAA/SSA Secur-A-Kiddie Center, Inc. (Secur-A-Kiddie Center) is a nonprofit
    company established in 1991 and tax-exempt under 501(c)(3) of the IRC. Secur-A-
    Kiddie Center operated daycare services for SSA employees at SSA’s Headquarters
    in Woodlawn, Maryland, and at SSA’s Metro West facility in Baltimore, Maryland,
    until SSA issued a letter to terminate its agreement in August 2008.

•   EAA Fitness, Inc. (EAA Fitness) is a nonprofit company established in 2000 and
    tax-exempt under 501(c)(3) of the IRC. 1 EAA Fitness operated fitness center
    facilities at SSA Headquarters and at the SSA Metro West facility until SSA
    terminated its agreement, effective March 2009. EAA Fitness also operated a
    fitness center on the CMS campus in Baltimore, Maryland, which was in operation at
    the time of this review.

•   The SSA Community Scholarship Fund, Inc. (Scholarship Fund) is a nonprofit
    company established in 1989 and tax-exempt under 501(c)(3) of the IRC. The
    Scholarship Fund provides scholarships to SSA employees with funds donated by
    Combined Federal Campaign contributors.

EAA and its related entities are corporations that conduct business operations on SSA
and CMS property and receive(d) indirect appropriated funding support in the form of
facility use, equipment purchases (playground equipment, fitness equipment, etc.),
1
 On March 1, 2000, EAA Fitness amended its articles of incorporation to reflect a change in status from
501(c)(3) to 501(c)(4).


The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)                               2
maintenance, and utilities. However, EAA and its related entities are supported
primarily through revenues generated from the sale of goods and services to, or
membership dues from, SSA and CMS employees.

EAA For-Profit Entities

In 1977, the Internal Revenue Service (IRS) informed EAA of its intent to revoke the
corporation’s tax-exempt status. According to copies of correspondence provided by
EAA management, the IRS determined that EAA’s sale of life insurance and
merchandise at a discount to members was not a charitable purpose. As further
justification for the revocation of EAA’s tax-exempt status, the IRS stated that combining
the accounting of the for-profit activities along with the tax-exempt functions performed
by EAA could result in the use of tax-exempt income to subsidize non-tax-exempt
activities.

During the following year, EAA created two for-profit corporations (Service Corp. and
Service Centers) and transferred the merchandise vending and insurance business
activities into these corporations. Based on this action, in March 1980, the IRS
reversed its decision and reaffirmed EAA’s tax-exempt status.

Agreements Between SSA and EAA

In 1977, SSA issued an Administrative Directive that established policies governing the
relationship between SSA and employee activity associations, including EAA. The
Directive outlined the conditions that employee activity associations must follow to
maintain their identification with SSA. The Directive required that employee
associations account for all funds used, maintain complete records of receipts and
disbursements, and have its records audited annually. EAA’s Constitution and By-Laws
also state that all EAA books and records shall be available for audit and public
inspection by SSA. Further, SSA and EAA separately negotiated Memorandums of
Understanding (MOU) outlining specific responsibilities related to the operation of child
care and fitness center activities. The MOUs authorized SSA to audit or inspect EAA
records.

In 2005, OGC reviewed all MOUs between SSA and non-Federal entities. OGC
determined that EAA violated the express terms of its MOUs with SSA by operating the
fitness centers with its own employees and by not securing the services of a vendor.
EAA initially contracted with a vendor to operate the fitness centers. However, in
September 2000, EAA replaced the vendor and began operating the fitness centers with
its own employees. OGC concluded this arrangement did not comply with Federal
acquisition law. According to OGC, the services should have been made available for
full and open competition. Even after OGC made this determination, SSA allowed EAA
to continue operating the fitness center with its own employees for another 3 years.




The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)              3
In 2008, SSA terminated the MOUs allowing EAA to operate both fitness and child care
facilities on SSA property in Baltimore, Maryland. Federal Occupational Health
assumed management of SSA’s fitness center operations and the newly formed child
care board awarded a Texas-based company a contract to provide child care services.

Prior Audit Engagement

In July 2008, SSA contracted with a public accounting firm to audit EAA and its related
organizations for the FYs ended September 30, 2006 and 2007. During the audit, EAA
management and staff limited the auditors’ access to EAA personnel and financial
records. As a result of these restrictions, in December 2008, the SSA Contracting
Officer directed the firm to stop work on the audit, effectively ending the contract. At the
time, audits on four of the six EAA entities were in the planning phase, and the EAA
Fitness audit was in the early phase of substantive testing. The firm’s personnel
informed us they completed substantive testing on their audit of the Secur-A-Kiddie
Center. The auditors needed to meet with EAA management to discuss various
issues/concerns identified during the engagement.

During our discussions with the Partner and Senior Manager assigned to the audit, the
Senior Manager provided us examples of the unresolved issues and stated that the firm
needed to get agreement from EAA management on the audit team’s proposed
adjustments. However, this meeting did not occur before the engagement was
terminated. As a result, the firm did not issue an opinion on the related financial
statements. Based on our meetings with the firm’s personnel and review of the
information they provided, we believe the unresolved issues did not materially affect
information presented in the financial statements and would not have prevented the firm
from issuing an unqualified opinion on Secur-A-Kiddie Center’s FY 2006 and 2007
financial statements.




The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)               4
                                                      Results of Review
Balances reported on EAA and its five related entities’ financial statements for FYs 2006
through 2008 were generally valid and supported. We identified various reporting or
internal control-related issues that required attention, including inter-entity loans totaling
$390,240 that appeared unlikely to be repaid and could potentially jeopardize EAA’s
tax-exempt status. We also found EAA subjected itself to potential IRS tax liabilities
and penalties because it classified a worker as an independent contractor without
justification and subsequently failed to report the worker’s compensation to the IRS.

An SSA general schedule employee’s primary job duties consisted of managing the
day-to-day operations of EAA and its related entities over the past couple decades.
Specifically, the employee’s official duties involved serving as president of EAA-related
corporations that received Federal funds. This arrangement appeared to violate
Federal conflict-of-interest law and regulations and occur with the approval of SSA
management for more than 20 years. Also, between 1988 and 2000, SSA entered into
formal agreements that allowed the Federal employee-owned and controlled
organization to operate daycare and administer fitness center operations on SSA
property. EAA did not comply with significant provisions of its agreements with SSA,
and SSA did not enforce these provisions.

SSA has taken several significant actions that affect EAA operations. To prevent
continued violation of Federal conflict-of-interest regulations, in Calendar Year 2008,
SSA assigned the SSA employee duties unrelated to EAA activities. In addition, SSA
hired a public accounting firm to audit EAA and its related entities’ financial statements.
SSA also terminated the MOU that allowed Secur-A-Kiddie Center to operate daycare
centers on SSA Woodlawn and Metro West properties in Baltimore, Maryland, and
replaced Secur-A-Kiddie Center as the daycare center provider. SSA’s OGC also
informed Service Centers it could no longer conduct vendor activities on SSA property,
effective January 2009. In addition, SSA terminated the MOU that allowed EAA to
manage fitness centers on SSA property and replaced EAA as the fitness center
operator in March 2009.

EAA Financial Transactions
We reviewed selected financial statement balances reported on EAA and its five related
entities’ financial statements for FYs 2006 through 2008. Balances reviewed were
generally valid and supported. However, we identified a number of financial reporting
discrepancies that required attention, even though they were not material relative to the
overall financial statements.




The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)                   5
Service Centers’       The $28,000 “Other Assets” amount reported on the Service
Other Assets           Centers’ financial statements was overstated by $18,000. The
                       amount consisted of the recorded value of 16 permanent seat
licenses (PSL) 2 EAA purchased from the Baltimore Ravens from 1998 to 2001. We
contacted the Baltimore Ravens Ticket Office and verified that EAA paid $10,000 for the
PSLs. It appeared the balance reported on the financial statements erroneously
included the value of 24 additional PSLs EAA purchased on behalf of EAA members,
who repaid EAA for the cost of these purchases through installment payments or payroll
deductions. As the balances were repaid, EAA transferred title of the PSLs to the EAA
members, but it did not reduce the value of the assets reported on its accounting
records.

For FYs 2006 through 2008, Service Centers spent $44,212 to purchase Baltimore
Ravens season tickets associated with the PSLs. Service Centers reported these
purchases as “Administrative Expenses.” According to EAA management, EAA did not
make these tickets available for sale to its membership. Instead, the tickets were given
to EAA management, staff, or vendors or were donated to various charitable groups.
EAA management maintained no records to account for how these tickets were
distributed.

The value of the PSLs has increased significantly since their original purchase. The
Baltimore Ravens created a PSL & Wait List Marketplace Website where PSL owners
can attempt to purchase PSLs from the team by adding their name to a waiting list or list
their PSLs for sale to the general public. 3 According to the Website, the face value of
comparable (same section, similar row) PSLs purchased from the team is $26,000.
Review of comparable PSLs that owners listed for sale as of January 2010 indicated the
market value of EAA’s PSLs was approximately $60,000.

Because of significant recent declines in EAA business activities, Service Centers did
not have sufficient resources to continue purchasing the Baltimore Ravens tickets.
According to EAA management, to prevent EAA from forfeiting the PSLs, the EAA
president personally purchased all 16 Baltimore Ravens 2009-2010 season tickets. The
president stated he continued to give the tickets to staff members as a work incentive,
but he also planned to sell the individual game tickets to recover his purchase cost. We
believe that allowing the EAA president to purchase the season tickets with personal
funds to prevent forfeiture of the PSLs raises concerns about EAA’s continued
ownership of these assets.




2
 PSLs give owners the exclusive right to purchase Baltimore Ravens season tickets at M&T Bank
Stadium. To retain title to the PSLs, the owner must continue to purchase season tickets each year.
3
 Baltimore Ravens PSLs are currently sold out. In the event PSL owners do not continue to purchase
season tickets, the PSLs are forfeited to the Baltimore Ravens. The Baltimore Ravens then make the
PSLs available for sale at predetermined face values.


The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)                           6
Segregation       EAA could improve the segregation of duties as related to its
of Duties         accounting processes. Key duties and responsibilities should be
                  divided or segregated among different people to reduce the risk of
error or fraud. This should include separating the responsibilities for authorizing
transactions, processing and recording transactions, reviewing transactions, and
handling any related assets. No one individual should control all key aspects of a
transaction or event. 4 However, during our review, we found the EAA treasurer
recorded all journal, cash disbursement, and general ledger entries, and performed
bank reconciliations for nearly all EAA entities.


President’s       EAA and
Expense           Service
                  Centers
                  reported a
total of $11,930 in “President’s
Expense” on their FY 2006
through 2008 financial
statements.5 EAA did not
have copies of actual source
documents to support these
expenditures. Instead, EAA
provided an itemized list of the
date, amount, payee, and
purpose of each payment.
The list indicated most
transactions involved
payments issued to the EAA
president or to the issuer of the
president’s credit card 6 as
reimbursement for
expenditures or donations made on EAA’s behalf.

The EAA president provided a copy of his November 2007 credit card statement to
support a $3,350 payment EAA issued to “Chase Credit Card” in December 2007. The
credit card statement listed two purchases totaling $3,350 from a restaurant in
Annapolis, Maryland. Based on discussions with EAA management, the expenditures
related to its “Past Presidents Dinner,” an annual event held for EAA’s Board, officers,
and their spouses in honor of the service of past EAA presidents. We found nothing to

4
 Government Accountability Office, Standards for Internal Control in the Federal Government,
GAO/AIMD-00-21.3.1, page 14 (November 1999).
5
  The itemized list shows $12,200 in transactions. The list does not reflect a $270 adjustment that
reduced reported expenses to $11,930.
6
  The EAA president stated the credit card account was established in his name, but used only for EAA-
related purchases.


The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)                              7
indicate these transactions were illegal. However, to better document future
transactions and avoid the appearance of impropriety, EAA should make purchases
directly from vendors instead of reimbursing its officers.

Inter-Entity     EAA and related entity FY 2008 financial statements disclosed the
Loans            existence of three loans between EAA entities with unpaid balances
                 totaling $390,240. The loan balances are due on demand without
interest. Current events raise serious concerns regarding the likelihood that these loans
will be repaid. As of September 30, 2008:

•   Service Centers owed EAA $191,576 and EAA Fitness $73,541. We question the
    practice of nonprofit, tax-exempt corporations issuing no-interest loans to a for-profit
    corporation and believe issuance of the loans could threaten EAA and EAA Fitness’
    tax-exempt status. A major reason the IRS nearly revoked EAA’s tax-exempt status
    in the 1970s was the potential use of tax-exempt funds to subsidize non-tax-exempt
    activities. Issuance of these loans similarly created situations where EAA and EAA
    Fitness’ tax-exempt funds subsidized the non-tax-exempt Service Centers’ activities.
    In addition, effective January 2009, SSA no longer allowed Service Centers to
    conduct vending activities on Agency property. We believe this action impairs
    Service Centers’ operations and its ability to repay the loans.

•   Secur-A-Kiddie Center owed Service Centers $125,123. According to EAA
    management, when SSA terminated EAA’s daycare center operations in August
    2008, Secur-A-Kiddie Center did not have sufficient cash on-hand to refund security
    deposits owed customers or pay the accrued leave balances owed its employees.
    To satisfy these obligations, EAA issued a loan to Secur-A-Kiddie Center. However,
    because Secur-A-Kiddie Center is no longer in operation, there is little likelihood this
    loan will ever be repaid.

EAA Organizational Structure and Compensation

Organizational       EAA’s governing body is its Board. The Board is responsible for
Structure            electing EAA’s officers, including the president, vice presidents,
                     and treasurer. The president and vice presidents must be Board
members, but the secretary and treasurer need not be Board members.

EAA Management         As part of this review, Senator Grassley requested we provide
Compensation           information on EAA management’s direct and indirect
                       compensation. EAA directors and officers were volunteers and
therefore were not compensated for their services—with three exceptions. EAA directly
compensated the treasurer and paid him $50 per hour for services performed during the
3-year audit period. EAA reported the treasurer’s payments on its financial statements
and tax returns under “Accounting Expense.” In addition, both the EAA president and
the Service Corp. vice president received indirect compensation for their services. The
president was a Federal employee whose salary and benefits were paid by SSA, even
though his full-time duties consisted of managing EAA activities. The Service Corp. vice


The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)                8
president was an officer in an insurance agency that provided various insurance
products EAA sold its members. While he was not directly compensated by EAA, the
Service Corp vice president was compensated for his service through the insurance
agency that employed him.

Wages and           EAA issued wage payments to its employees through a payroll
Salary Expense      servicing contractor. The contractor computed various tax and
                    benefit withholdings and issued payments to EAA employees. The
contractor also prepared and submitted quarterly tax reports and required payments to
the IRS on EAA’s behalf. At the end of the calendar year, the contractor prepared EAA
employees’ IRS Forms W-2, Wage and Tax Withholding. We determined that
approximately $2.6 million in wages reported on EAA, EAA Fitness, Service Centers,
and Service Corp. FYs 2006 through 2008 financial statements was supported and
reported to the IRS via Form W-2.

Unlike other compensated staff, EAA classified one worker as an “independent
contractor” and did not withhold or pay income, Social Security, or Medicare taxes on a
significant amount of compensation paid to the worker. The IRS requires that payments
to independent contractors for services in excess of $600 per year be reported on Form
1099-MISC, Miscellaneous Income (Form 1099). 7 Independent contractors, in turn, are
responsible for payment of any applicable income taxes, as well as both employer and
employee shares of Social Security and Medicare taxes.

We requested EAA provide all Forms 1099 issued during the audit period. We reviewed
available documents and found nothing to indicate that EAA reported the independent
contractor’s compensation to the IRS. EAA officials stated that EAA classified this
worker as an independent contractor because the individual worked a part-time,
irregular schedule. However, we believe EAA did not have sufficient basis for this
classification. IRS guidance indicates that anyone who performs a service for you is
your employee if you have the right to control what will be done and how it will be done.
It does not matter whether the individual works full- or part-time. 8 Further, EAA
compensated this worker on an hourly basis. According to IRS guidance, paying a
worker a regular wage amount for an hourly period of time usually indicates the worker
is an employee (an independent contractor is usually paid a flat fee for the job). 9




7
    IRS 2008 Instructions for Form 1099-MISC.
8
    IRS Publication 15-A, 2009 Employers Supplemental Tax Guide, page 4.
9
    IRS Publication 15-A, supra at page 6.


The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)             9
The IRS can hold a corporation liable for employment taxes if the corporation classifies
an employee as an independent contractor without a reasonable basis. 10 We question
EAA’s ability to establish a reasonable basis for this classification. Consequently, this
situation potentially exposes not only the worker, but also EAA, to significant tax liability,
penalties, and interest. To address this situation, we forwarded pertinent information to
the IRS.

Conflict of Interest
An SSA general schedule employee’s primary duties consisted of serving as president
of the EAA and managing the day-to-day operations of EAA and its related entities.
This arrangement appeared to violate Federal conflict-of-interest law and regulations. A
conflict of interest exists for Federal employees who participate personally and
substantially on a matter as a government employee, when such employees knows that
he/she or an organization for whom the employee serves as an officer has a financial
interest in such matter. 11 Willful violation of the conflict-of-interest law is punishable by
fines and up to 5 years in prison. 12 However, SSA allowed an employee’s official duties
to consist of serving as president of EAA-related corporations that received Federal
funds (for example, EAA Fitness equipment purchases, Secur-A-Kiddie Center facility
leasing and maintenance, and EAA business office expenses). 13 Further, Federal
employees cannot accept gifts, directly or indirectly, from a prohibited source 14 or given
because of the employee’s official position; 15 and cannot use their public office for
private gain. 16 There were potential violations of these regulations when the SSA

10
     IRS Publication 15-A, supra at page 5.
11
     18 U.S.C. § 208(a).
12
     18 U.S.C. § 216.
13
   To the extent that the president of EAA negotiated on behalf of EAA other than in the proper discharge
of his official duties as a government employee, a potential violation of 18 U.S.C. § 205 conflict–of-
interest law may also exist. 18 U.S.C. § 205(a) provides: “Whoever, being an officer or employee of the
United States in the executive, legislative, or judicial branch of the Government or in any agency of the
United States, other than in the proper discharge of his official duties (1) acts as agent or attorney for
prosecuting any claim against the United States, or receives any gratuity, or any share of or interest in
any such claim, in consideration of assistance in the prosecution of such claim; or (2) acts as agent or
attorney for anyone before any department, agency, court, court-martial, officer, or civil, military, or naval
commission in connection with any covered matter in which the United States is a party or has a direct
and substantial interest; shall be subject to the penalties set forth in section 216 of this title.”
14
   Prohibited source effectively means any persons, corporations, and subsidiaries controlled by such
corporations, etc., and officers thereof, who (1) seek official action by the employee’s agency; (2) does
business or seeks to do business with the employee’s agency; (3) conducts activities regulated by the
employee’s agency; (4) has interests that may be affected by performance or nonperformance of the
employee’s official duties; or (5) is an organization a majority of whose member are described in (1)
through (4) above. 5 C.F.R. § 2635.203(d).
15
     5 C.F.R. . § 2635.202, General standards.
16
     5 C.F.R. § 2635.702, Use of public office for private gain.


The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)                                 10
employee, in his capacity as EAA president, was given access to Baltimore Ravens
season tickets or to meals purchased by EAA, or when the SSA employee used EAA’s
PSLs to purchase Baltimore Ravens season tickets for his personal use.

It appeared that, as far back as the 1980s, an understanding existed between senior
SSA management and the employee that his full-time duties would consist of managing
EAA’s activities. On March 21, 2001, SSA management formalized this arrangement
and approved a position description that made the employee’s primary duty to serve as
“. . . liaison with SSA employee-sponsored and supported groups and organizations.” In
this capacity, the employee was to participate in developing objectives and priorities for
administering SSA employee-sponsored programs, such as the SSA child-care centers,
SSA fitness centers, and EAA; provide advice on Agency-wide initiatives and programs
relating to EAA; and establish and maintain working relationships with employee-
sponsored groups and organizations.

In December 2008, SSA management addressed this conflict of interest by reassigning
the employee to a Public Affairs Specialist position in SSA’s Office of Intergovernmental
and Community Affairs. In a December 21, 2008 letter, an SSA official formally notified
the employee of his reassignment and stated, “I am reassigning you to avoid any
possible conflicts of interest between your official duties and the duties you discharge as
President of the EAA.” The letter stated SSA reassigned the employee to ensure his
official duties and responsibilities “. . . in no way bring you into contact with the activities
and operations of the Employee Activities Association.”

Noncompliance with Agreements Negotiated with SSA
EAA did not comply with certain provisions of agreements negotiated with SSA, and
SSA did not enforce these provisions.

•   EAA did not have all its entities independently audited annually, as required by a
    1977 Administrative Directive governing the relationship between SSA and the EAA
    and separate MOUs negotiated with SSA. While we observed that EAA produced
    annual financial statements for all EAA entities, only the Secur-A-Kiddie Center and
    Scholarship Fund financial statements were audited by an independent accounting
    firm. EAA management cited the high cost associated with hiring an independent
    accounting firm to perform financial statement audits as justification for non-
    compliance. Before hiring a public accounting firm to audit EAA’s financial
    statements in 2008, SSA did not effectively monitor or enforce this requirement.

•   EAA did not secure liability insurance coverage for the EAA Fitness operation in
    amounts required by its MOU with SSA. The MOU required that EAA maintain
    $2 million in liability insurance per occurrence and $4 million in the aggregate.
    Instead, EAA purchased $1 million in liability insurance per occurrence, and
    $2 million in the aggregate. Available documentation indicated that EAA paid
    approximately $7,500 in annual premiums for the liability policy. EAA cited high
    costs as justification for purchasing less liability insurance than specified in the


The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)                  11
       MOU. Further, EAA management stated that over the nearly 20 years of operation
       of the fitness center, no liability claims were filed. Absent enforcement of the MOU
       provision by SSA, EAA purchased less liability insurance and avoided approximately
       $7,500 in annual insurance premiums.

•      EAA did not procure the services of a vendor to operate the fitness facilities from
       2000 through 2009 as specified in its MOUs with SSA. Although EAA initially
       complied with this provision in 1988, in Calendar Year 2000, EAA terminated the
       contract with the fitness center vendor and assumed direct operation of the fitness
       centers from 2000-2009. Before terminating the MOU and replacing EAA with
       another vendor in March 2009, SSA did not effectively monitor or enforce this MOU
       provision.

Further, in 1991, SSA signed an MOU that authorized EAA to provide daycare services
for SSA employees who work in Baltimore, Maryland. SSA’s award of these services to
EAA appeared to violate the intent of the Federal Acquisition Regulation, which
generally prohibits a contracting officer from awarding a Government contract to an
organization owned or substantially controlled by Federal employees. 17 This regulation
is intended to avoid any conflict of interest that might arise between the employees’
interests and their Government duties and to avoid the appearance of favoritism or
preferential treatment by the Government toward its employees.18

EAA operated the daycare centers on SSA’s campuses for approximately 17 years. In
2008, SSA formed an executive panel to review and make recommendations to improve
daycare center operations. To comply with Federal guidelines,19 the panel
recommended establishment of a nonprofit board comprised of employees and other
community members. The panel further recommended the nonprofit board award a
contract to a child care vendor that could manage, operate, and staff the centers. The
nonprofit board was formed and it awarded a contract to a commercial vendor who
assumed operation of SSA’s Baltimore, Maryland, child care centers from EAA in
August 2008.




17
     Federal Acquisition Regulation § 3.601, 48 C.F.R. § 3.601, effective September 24, 1990.
18
     Id.
19
  General Services Administration Administrative Order 9252.1, issued in February 1984, allows a
Federal agency to allocate space to a voluntary employee association (nonprofit board) for the purpose of
providing child care services. With General Services Administration guidance, the Board can select a
qualified provider to perform child care services.


The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)                           12
                                                                    Conclusions
Balances reported on EAA and its five related entities’ financial statements for FYs 2006
through 2008 were generally valid and supported. However, we identified various
reporting or internal control-related issues requiring attention. Also, the financial
statements disclosed inter-entity loans totaling $390,240 that appeared unlikely to be
repaid and could jeopardize EAA’s tax-exempt status.

EAA may have improperly classified a worker as an independent contractor. EAA paid
the worker significant amounts for services performed but did not appear to report the
compensation to the IRS. As a result, both the worker and EAA may be liable for
payment of significant back income, social security, and Medicare taxes, penalties, and
interest.

An SSA general schedule employee’s primary duties consisted of serving as president
of EAA and managing the day-to-day operations of EAA and its related entities over the
past couple decades. This situation appeared to violate Federal conflict-of-interest law
and regulations. It appeared senior SSA officials approved this arrangement and
allowed it to persist over the past couple decades.

EAA did not comply with certain provisions of agreements negotiated with SSA nor did
SSA enforce these provisions. Further, contrary to Federal regulations that prohibit
awarding Government contracts to organizations owned or controlled by Federal
employees, SSA entered into an agreement that allowed EAA to operate child care
facilities on Agency property between 1991 and 2008.

SSA has recently taken several significant actions affecting EAA operations. In
December 2008, the EAA president’s supervisor formally re-assigned him to duties
unrelated to EAA activities. In July 2008, SSA hired a public accounting firm to audit
EAA related entities’ financial statements. SSA terminated the MOU that allowed
Secur-A-Kiddie Center to operate daycare centers on SSA property in Baltimore,
Maryland, and replaced Secur-A-Kiddie Center as the daycare center provider in
August 2008. Effective January 2009, SSA no longer allowed Service Centers to
conduct vendor activities on SSA property. SSA also terminated the MOU allowing EAA
to manage fitness centers on SSA property and replaced EAA as the fitness center
operator in March 2009.




The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)           13
                                             Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology




The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)
                                                                              Appendix A

Acronyms

 Board                         Board of Directors

 CMS                           Centers for Medicare & Medicaid Services

 EAA                           Social Security Employees’ Activities Association, Inc.

 EAA Fitness                   EAA Fitness, Inc.

 Form 1099                     IRS Form 1099-MISC, Miscellaneous Income

 Form W-2                      Wage and Tax Withholding

 FY                            Fiscal Year

 IRC                           Internal Revenue Code

 IRS                           Internal Revenue Service

 MOU                           Memorandum of Understanding

 OGC                           Office of General Counsel

 PSL                           Permanent Seat License

 Scholarship Fund              The SSA Community Scholarship Fund, Inc.

 Secur-A-Kiddie Center         EAA/SSA Secur-A-Kiddie Center, Inc.

 Service Centers               EAA Service Centers, Inc.

 Service Corp.                 EAA Service Corporation, Inc.

 SSA                           Social Security Administration




The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)
                                                                              Appendix B

Scope and Methodology
We reviewed the responsibilities and benefits derived from Social Security
Administration (SSA) funds and resources by the Social Security Employees’ Activities
Association, Inc., (EAA) and related entities and their management for Fiscal Years (FY)
2006 through 2008. We reviewed EAA’s compliance with applicable agreements and
Memorandums of Understanding as they pertained to the management and operation of
the EAA. To accomplish our objective, we:

• Interviewed employees from SSA and EAA-related entities.

• Reviewed Memorandums of Understanding between SSA and EAA-related entities,
  and Administrative Directives for compliance with the terms of the written
  agreements.

• Examined selected income and expense line items from the audited and/or compiled
  financial statements or tax returns of EAA-related entities for adequate and accurate
  reporting, validity, and support.

• Identified and reviewed the economic support provided by SSA to EAA-related
  entities.

• Reviewed work papers and source documentation used in reporting selected income
  and expense line items for FYs 2006 through 2008.

• Reviewed both direct and indirect compensation received by EAA Board of Directors
  members, management, and staff.

• Reviewed SSA’s awarding, monitoring, and oversight of its agreements with EAA-
  related entities.

As employees of SSA, Office of the Inspector General staff members are eligible to join
the EAA. However, no individuals assigned to this audit team are EAA members. The
team also included two auditors provided by the U.S. Postal Service’s Office of
Inspector General.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We performed our audit from August 2009 through January 2010 at
SSA Headquarters and EAA Offices in Baltimore, Maryland.


The Social Security Employees’ Activities Association, Inc. (A-06-10-11028)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
